ER-B-00-01




         AUDIT
        REPORT



                                      CENTRAL SHOPS
                                 AT BROOKHAVEN NATIONAL
                                       LABORATORY




                                         MAY 2000




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                               DEPARTMENT OF ENERGY
                                  Washington, DC 20585


                                    May 11, 2000


MEMORANDUM FOR THE MANAGER, CHICAGO OPERATIONS OFFICE

FROM:          Terry L. Brendlinger, Manager (Signed)
               Eastern Regional Audit Office
               Office of Inspector General

SUBJECT:       INFORMATION: Audit Report on "Central Shops at Brookhaven National
Laboratory"


BACKGROUND

Brookhaven National Laboratory's (Brookhaven) Central Shops Division (Central Shops)
provides support services for research and development programs and user facilities. The
Department requires its management and operating contractors to evaluate, by performing a
make-or-buy analysis, whether their services could be obtained at a lower cost by outsourcing
to commercial entities. The objective of the audit was to determine whether Brookhaven
prepared a make-or-buy analysis for its Central Shops.


RESULTS OF AUDIT

Brookhaven did not prepare a make-or-buy analysis for its Central Shops. Brookhaven and the
Department did not give a high priority to performing a make-or-buy analysis in part due to
outsourcing restrictions in Brookhaven's collective bargaining agreement. Also, limitations in
its financial system impeded the performance of a make-or-buy analysis. As a result,
Brookhaven and the Department may be missing opportunities to reduce fabrication costs.


MANAGEMENT REACTION

Management concurred with the audit finding and recommendations.
CENTRAL SHOPS AT BROOKHAVEN NATIONAL LABORATORY


TABLE OF
CONTENTS



               Overview

               Introduction and Objective ..........................................................1

               Conclusions and Observations.................................................. 1


               Make-or-Buy Analysis

               Details of Finding.......................................................................3

               Recommendations and Comments ...........................................5


               Appendix

               Scope and Methodology.............................................................6
OVERVIEW

INTRODUCTION AND   Brookhaven's Central Shops provides mechanical fabrication, quality
OBJECTIVE          control, and machine maintenance services in support of research and
                   development programs and user facilities. Central Shops has an annual
                   budget of about $6 million with 75 employees. In 1994, the
                   Department implemented the requirement for its management and
                   operating contractors to evaluate whether their services could be
                   obtained at a lower cost by outsourcing to commercial entities.
                   Consistent with this approach, Brookhaven's contract requires
                   Brookhaven to develop and implement a make-or-buy plan that
                   establishes a preference for providing supplies and services on a least-
                   cost basis while also weighing factors such as program needs and
                   quality.

                   Prior audits have reported the need for a more proactive approach for
                   managing the Department's make-or-buy program. For example, The
                   Department's Management and Operating Contractor Make-or-Buy
                   Program, DOE/OIG-0460, February 2000, reported that three of the
                   four contractors reviewed had either not included all functions in their
                   make-or-buy plans or had not scheduled cost-benefit analyses for many
                   functions that were candidates for outsourcing. Also, Outsourcing
                   Opportunities at the Los Alamos National Laboratory, WR-B-00-03,
                   January 2000, reported that the contractor had not identified all support
                   services with outsourcing potential. In addition, a prior report on
                   Brookhaven's Central Shops, Audit of Central Shops at the Brookhaven
                   National Laboratory, ER-OC-89-10, May 1989, had reported that, for
                   certain types of fabrication, Brookhaven could have saved costs of 25 to
                   40 percent if the work had been done by commercial machine shops
                   rather than by Central Shops.

                   The objective of the audit was to determine whether Brookhaven
                   prepared a make-or-buy analysis for its Central Shops.

CONCLUSIONS AND    Brookhaven did not prepare a make-or-buy analysis for its Central
OBSERVATIONS       Shops. Even though Central Shops was one of Brookhaven's largest
                   service functions, Brookhaven and the Department did not give a high
                   priority to performing a make-or-buy analysis in part due to outsourcing
                   restrictions in Brookhaven's collective bargaining agreement. Also,
                   limitations in its financial system impeded the performance of a make-
                   or-buy analysis. As a result, the Department and Brookhaven may be
                   missing opportunities to reduce fabrication costs.




Page 1                                                      Introduction and Objective/
                                                         Conclusions and Observations
         Management should consider the issues discussed in this audit report
         when preparing its yearend assurance memorandum on internal controls.




                                                     (Signed)
                                            Office of Inspector General




Page 2                                        Conclusions and Observations
MAKE-OR-BUY ANALYSIS

Make-or-Buy Analysis   Brookhaven had not prepared a make-or-buy analysis for its Central
Was Not Performed      Shops. In its 1995 laboratory-wide make-or-buy plan, Brookhaven had
for Central Shops      identified Central Shops as a function that should be subjected to a
                       make-or-buy analysis that would evaluate lower cost alternatives such
                       as outsourcing. However, even though Central Shops is one of
                       Brookhaven's largest service functions, an analysis was neither
                       performed nor scheduled.

                       Furthermore, Brookhaven had not prepared a make-or-buy analysis to
                       evaluate the impact on Central Shops of recent program changes. For
                       example, recent completion of the Relativistic Heavy Ion Collider
                       (RHIC), a high-energy physics user facility, will have a significant
                       negative impact on Central Shops' workload. During its construction,
                       RHIC had been the major user of Central Shops, and, over the last
                       3 years, 63 percent of Central Shops' productive hours had been spent
                       on RHIC-related tasks. Also, in November 1999, the Department
                       announced the permanent closure of another Brookhaven user facility,
                       the High Flux Beam Reactor. While new work associated with the
                       Large Hadron Collider, the Spallation Neutron Source, and the Booster
                       Accelerator Facility will require Central Shops support, it is not
                       expected to fully replace the RHIC workload.

                       The Department has stressed the importance of make-or-buy decisions
Department Policy
                       and outsourcing as a potential lower cost alternative. A 1994 report,
Required Make-or-Buy
                       Making Contracting Work Better and Cost Less, concluded that
Analysis
                       significant savings could accrue to the Government if functions not
                       essential to the Department's core mission were performed by outside
                       contractors. Likewise, a 1997 report, Harnessing the Market: The
                       Opportunities and Challenges of Privatization, emphasized the need for
                       a make-or-buy screening process that identifies services with
                       outsourcing potential and conducting a cost-benefit analysis to
                       determine whether such services can be outsourced at a lower cost.

                       Brookhaven's contract, which implements the requirements of the
                       Department of Energy Acquisition Regulations (DEAR), requires
                       Brookhaven to develop and implement a make-or-buy plan that
                       establishes a preference for providing supplies and services on a least-
                       cost basis. The contract also cites several other factors besides cost that
                       need to be factored into the make-or-buy decision such as excellence in
                       institutional management and facilities operations, quality
                       considerations, and core institutional management competencies. In
                       addition, DEAR 970.15407-2 requires the contracting officer to ensure
                       that a make-or-buy plan is developed and implemented for all services
                       with annual costs in excess of $1 million or over 1 percent of the

Page 3                                                                        Details of Finding
                           management and operating contractor's estimated operating costs,
                           whichever is less.

Make-or-Buy Analysis Was   Brookhaven and Department management did not give a high
Not a High Priority        priority to performing a make-or-buy analysis. Brookhaven
                           management did not consider Central Shops to be a function that
                           offered a high probability to deliver savings through outsourcing. In
                           addition, Brookhaven believes that a core competency of staff and
                           equipment in Central Shops is essential to support Brookhaven’s
                           mission. However, Brookhaven management had not performed a
                           formal cost-benefit study to support these assumptions. Moreover,
                           the Department did not require Brookhaven to perform a make-or-
                           buy analysis even though Central Shops exceeded the DEAR
                           threshold for requiring such an analysis.

                           In addition, Brookhaven's ability to evaluate lower-cost alternatives
                           was hindered by its collective bargaining agreement that placed
                           certain restrictions on outsourcing. The agreement, effective August
                           1997, generally prevents Brookhaven from outsourcing a labor skill
                           for one year if the number of union employees with the same skill
                           drops below a fixed minimum level due to involuntary lay offs. For
                           example, if a welder is involuntarily laid off and, as a result, the
                           number of welders drops below the agreed-to level, the collective
                           bargaining agreement prevents Brookhaven from outsourcing
                           welding services for one year. This agreement is scheduled for
                           renegotiation later this year.

                           Furthermore, Brookhaven's financial system could not readily
                           provide sufficient cost data for a make-or-buy analysis because the
                           system accounts for all Central Shops' work at a single average cost
                           rate. Therefore, Brookhaven could not accurately compare the costs
                           of specific tasks and functions at Central Shops to the costs of
                           comparable tasks and functions at commercial machine shops.
                           Brookhaven representatives advised us that they have been exploring
                           ways to refine the rate charging methodology through use of
                           Brookhaven's new financial system, which Brookhaven plans to
                           implement this fiscal year.

Opportunities to Reduce    Without a make-or-buy analysis, the Department and Brookhaven
Costs May Have Been        may be missing opportunities to reduce fabrication costs through
Missed                     outsourcing or other privatization initiatives. For example, we
                           visited five local commercial machine shops and found that their
                           rates for computerized numerically-controlled machining, manual


Page 4                                                                       Details of Finding
                      machining, welding, and sheet metal work ranged from $13 to $33
                      per hour less than the Central Shops' charging rate. Other factors
                      such as production time, craftsmen skills and experience, and
                      machine precision can heavily influence final job costs, and
                      Brookhaven's scientific programs will likely require that some level
                      of core competency be maintained in-house. However, these
                      significant rate differences point out that an analysis of potential
                      savings through outsourcing is warranted.

                      Because Brookhaven's collective bargaining agreement has had a
                      significant impact on outsourcing opportunities, it would behoove
                      Brookhaven to perform a make-or-buy analysis prior to the
                      upcoming renegotiation of the agreement. An evaluation of
                      lower-cost alternatives would provide both parties with data to
                      consider during the upcoming negotiations.

RECOMMENDATIONS       We recommend that the Manager, Chicago Operations Office, direct
                      Brookhaven, before negotiation of its next collective bargaining
                      agreement, to:

                      1. Review its methodology for measuring and charging the costs of
                         Central Shops services and make appropriate changes.

                      2. Perform a make-or-buy analysis for Central Shops that evaluates
                         opportunities to reduce costs such as outsourcing and
                         privatization.

MANAGEMENT REACTION   Management concurred with the audit finding and recommendations.


AUDITOR COMMENTS      We consider management's comments to be responsive.




Page 5                                               Recommendations and Comments
Appendix

SCOPE         The audit was performed from July 1999 to March 2000 at Brookhaven
              National Laboratory in Upton, New York.

METHODOLOGY   To accomplish the audit objective, we reviewed:

              •   Brookhaven’s contract provisions relating to its make-or-buy
                  program;

              •   Brookhaven’s policy and practices for obtaining machine services
                  and charging Central Shops users;

              •   Prior audit reports;

              •   Central Shops' productivity and certain individual shop jobs;

              •   Brookhaven's collective bargaining agreement;

              •   Rates and productivity information from local commercial machine
                  shops; and,

              •   Performance measures relevant to Central Shops.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, we
              assessed the significant internal controls and performance measures
              related to Brookhaven’s Central Shops. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. Our review
              did not rely on computer-processed data. Also, Brookhaven established
              performance measures under the Government Performance Results Act
              of 1993 for Central Shops. However, these measures did not
              specifically require a make-or-buy analysis.




Page 6                                                     Scope and Methodology
                                                                               IG Report No. : ER-B-00-01

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General, Home Page
                                        http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
